HHS/OIG-AUDIT--Durable Medical Equipment Regional Carrier Overpayments (A-04-96-01144)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"OPERATION RESTORE TRUST:  Review of Durable Medical Equipment Regional Carrier Overpayments," (A-04-96-01144)
March 4, 1997
Complete
Text of Report is available in PDF format (473K). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of our review of durable medical equipment regional carrier (DMERC) overpayments.
The objectives of our review were to determine whether Palmetto Government Benefits Administrators (GBA) were identifying
and collecting overpayments from Medicare providers in a timely manner and to determine whether the DMERC was writing off
overpayments.
Our review at Palmetto GBA has identified problems with the overpayment collection process. As of June 30, 1996, the DMERC
has identified and recorded $112.6 million in overpayments and interest which have not been collected from the Medicare
durable medical equipment (DME) providers. Our review of 90 overpayments showed that established collection procedures
were not followed in a timely manner resulting in an excessive dollar amount of outstanding overpayments.
In a memorandum dated November 8, 1996, we advised the Health Care Financing Administration (HCFA) of our findings. In
a memorandum dated December 16, 1996, HCFA responded that subsequent to our review, they had been actively involved in
overseeing the recoupment of the DMERC overpayments. The HCFA reported that individual overpayments in excess of $5,000
(that had totaled $97,470,926) had been reduced to $45.7 million through collection or referral to HCFA for appropriate
action. In addition, HCFA stated that the Atlanta Regional Office will follow-up on a monthly basis with the DMERC to assure
that appropriate action has been taken on all overpayments.
The HCFA requires uncollected overpayments outstanding over 180 days to be transferred to HCFA for collection. Therefore,
none of the Medicare DME overpayments should be written off by the DMERC. During our audit, we did not find any instances
where the DMERC had written off overpayments to providers.
We recommend that the DMERC take immediate corrective actions to comply with collection procedures in order to reduce
or eliminate the $112.6 million in overpayments and interest in a timely manner.